             HIV INFECTION AMONG STREET YOUTH





     f."VJCES.




  ;Clttlla


OFFICE OF INSPECTOR GENERAL
Offce of Evaluation and Inspections
                                          DECEMBER 199

. 1'





                               OFFICE OF INSPECTOR GENERAL

        The mission of the .office of Inspector General (OIG) is to promote the efficiency,
        effectiveness , and integrty of programs in the United States Department of Health
        and Human Servces (HHS). It does this by developing methods to detect and
        prevent fraud , waste , and abuse. Created by statute in 1976, the Offce of
                                                                                      Inspector
        General keeps both the Secretary and the Congress fully and currently informed
        about programs or management problems and recommends corrective action. The
        OIG performs its mission by conducting audits , investigations , and inspections with
        approximately 1   400 staff strategically located around the country.


                        OFFICE OF EVALUATION AND INSPECTIONS

        This report is produced by the Offce of Evaluation and Inspections (OEI), one of
        the three major offices within the OIG. The other two are the Offce of Audit
        Servces and the Office of Investigations. Inspections are conducted in accordance
        with professional standards developed by OEI. These inspections are
                                                                               tyically short-

        term studies designed to determine program effectiveness, efficiency, and vulnerabilty
        to fraud or abuse.



        The purpose of this inspection is to determine the scope and nature of the problem
        of HIV infection among street youth. It provides an overvew of the various issues
        presented by the epidemic, an understanding of how those issues are being
        addressed , and a set of recommendations for future action. The report was
        prepared under the direction of Mark R. Yessian , Ph. , Regional Inspector General
        of Region I , Office of Evaluation and Inspections, and Martha B. Kvaal , Deputy
        Regional Inspector General. Participating in this project were the following people:

        Boston Region                                         Headquarers
        Mary Ann Chaffee Project Leader                       Alan S. Levine
        Joyce M. Greenleaf
        David Schrag
        Charles Vann
        Christine N. Owens
        Beth Rubin
        Elizabeth A Wirick
        Eleanor M. Ells
,"




           HIV INFECTION AMONG STREET YOUTH





                   RICH P. KUSSEROW
                     INSPECTOR GENERA




     OEI                                DECEMBER 199
                                EXECUTIVE SUMMARY

PURPOSE

The purpose of this inspection is to determine the scope and nature ' of the problem
of HIV infection among street youth and of the servces that address the problem.

BACKGROUND

AIS is a major threat to adolescents. Although very few cases of AIS have been
reported among teenagers , the number of reported cases among 20- to 29-year-olds
with AIDS suggests a high level of HIV infection (which causes AIS) among
teenagers. Some adolescents seem to be in more danger than others. They are
 street youth " who have diverged from society s mainstream and have fallen through
the safety net. Understanding the impact and future threat of HIV among street
youth is critical for two reasons. First , existing public health strategies for preventing
and treating HIV infection were initially developed for adult gay men and may have
limited utilty for this population of young people whose lifestyles suggest more
specialized approaches. Second , recent medical developments indicate that the use
of AIS therapies can delay the onset of symptoms among people infected with the
virus. This   makes early identification of infected street youth crucial for improving
their chances of longer- term survval.

FINDINGS

Both th rik and cuen rate of HW infectin are almt cerin               highe among street
youth thn among adlecents in genaL

    Thousands of young people have been infected and street youth are in particular
    danger. While the infection rate for all adolescents    nationwide appears to be
    less than one percent , for some subpopulations of adolescents the rate may be as
    high as seventy percent. High infection rates among street youth are a
    predictable consequence of the risky behaviors that constitute their lifestyle. The
    most common risk behavior for street youth appears to be unprotected sexual
    intercourse , which in some cases involves sex in exchange for basic survval
    needs.

Specil need of street youth compromise HW preventin, tetig,        and treatmt efort.
    Prevention: Basic survval needs of street youth overwhelm education efforts
    aimed at reducing high- risk behavior. The preventive measures which have
    proven successful in adult populations may be ineffective in this population.
     Testig: Youth workers      often hesitate to test street youth for HIV because of
     the lack of proper counseling and available follow-up servces.

     Treatment: Traditional medical institutions and street youth don t mix. Street
     youth are unlikely to seek out traditional institutions for care , in part because
     many such facilties actively reject them.

Th
    fight againt HWamong street youth suffer frm gaps in        reseah     on   behavir
change mols seroprevalee, and treatm protools.

     Behavior change models: Researchers and providers lack both basic information
     on street youths ' sexual behavior and models for   curtailig unsafe sex and    drug
     use.

     Seroprevalence: No one knows for sure how many street youth are infected.
     Because of insufficient data , attention and money may not be invested where
     they are most needed.

     Treatment protocls:     Manifestation of HIV disease in adolescents is an
     understudied phenomenon. One factor hindering progress in this area is the
     dearth of adolescents enrolled in clinical trials of HIV-related therapies.

At the loallee categorial reqemts and fragmed pram                       sttues weake
sere delier for street youth wih or at rik of HW infectin.
     Even when a range of servces is offered , categorical requirements and other
     access barrers frequently render those servces inaccessible to street youth.

     These requirements include money, consent , and age ranges. In addition
     fragmentation of funding sources and different ideological approaches impose
     serious barrers to   servce delivery.

At th Fedallee        the overall resnse to   th proble of HW infectin among street
youth is   intely      foced and    coordte
     The breach in coordination has especially severe ramifications for efforts
     involving HIV and street youth, because of the large number of Federal agencies
     with responsibilty for AIDS , adolescents , or both. In comparison to other
     groups affected by the disease , street youth seem to attract little attention from
     the Department , the public, traditional youth advocates , and Congress.
RECOMMENDATIONS

Th   Puli Heahh   Sere
The Public Health Servce (PHS), through the Centers for Disease Control (CDC),
should conduct additional seroprevalence research to measure the scope of the
epidemic among street youth.

The PHS should collect baseline data on the sexual behavior patterns of street youth.

The PHS , through the Alcohol, Drug Abuse , and Mental Health Administration
(ADAM) and the CDC, should conduct research on behavior change strategies
designed to reduce the risk of HIV infection among street youth.

The PHS should conduct research on the natural history and manifestation of HIV
infection in adolescents and develop appropriate counseling, testing and clinical
protocols for treating youth who are infected.

Th   Puli Heahh   Sere and th Ofe of Humn Deelopme Seres
The PHS , in collaboration with the Office of Human Development Servces (OHDS),
should design and implement a strategy to curb HIV infection among street youth in
six cities with large populations of street youth and high rates of HIV infection.

COMMENTS

We received comments on the draft report from the Public Health Servce (PHS),
the Office of Human Development Servces (OHDS), and the Assistant Secretary for
Planning and Evaluation (ASPE) within the Department. These comments reflect
general concurrence with our findings and recommendations. Based on the
comments we received from PHS and OHDS , we altered our final three
recommendations. We included the Centers for Disease Control (CDC) among the
PHS components which should conduct behavioral research among street youth , and
broadened the scope of our recommendation concerning the manifestation of HIV
disease among adolescents. We also changed the final recommendation to make it
more consistent with a pending CDC initiative aimed at preventing HIV infection
among street youth in six cities. The PHS , rather than OHDS , is now recommended
as lead agency for the six-city strategy. The detailed comments and our responses to
them appear in appendix   A.
............                              .......................................
                                                      . . . . . . . . . . . . . . . . . .. ...... .. .. .. ... ... ..
                        . .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ............... . . . . . . ..




                                                      TABLE OF CONTENTS
    EXECUTE SUMMARY


    INTODUCTION

    FINDINGS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          Both the risk and current rate of HIV infection are almost certainly
          higher among street youth than among adolescents in general. ....... 4

          Special needs of street youth compromise HIV prevention , testing, and
          treatment efforts.
                                           ........................................ 5

          The fight against HIV among street youth suffers from gaps in research
          on behavior change models , seroprevalence, and treatment protocols.                                                                                                  .. 8

          At the local level , categorical requirements and fragmented program
          structures weaken service delivery for street youth with or at risk of HIV
          infection. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

          At the Federal level , the overall response to the problem of HIV
          infection among street youth is inadequately focused and coordinated. . 14

    RECOMMENDATIONS

    COMMENTS ON THE DRAFT REPORT

    APPENDIX A

          Detailed Comments on the Draft Report and OIG Response to the
          Comments                                                                                                                                    . . . . . .. A­
    APPENDIX B


         Methodological Notes                                                                                                                                                    B-1

   APPENDIX C

         Endnotes                                                                                                                                                               C-1
                                                    " "




                                    INTRODUCTION


 PURPOSE

 The purpose of this inspection is to determine the scope and nature of the problem
 of HIV infection among street youth and of the servces that address the problem.

 BACKGROUND

Acquired immunodeficiency syndrome (AIDS) is a major threat to adolescents.
Although only 604 people aged 13- 19 have been diagnosed with AIS!,
                                                                       this figure
drastically understates the level of human immunodeficiency virus (HIV infection
which causes AIS. The median incubation period for HIV appears to be about 10
years , and may be longer for adolescents than for adults. This means that only
those teenagers who were infected very young or who progressed from infection to
AIDS very quickly are included in those 604 cases. Most people infected
teenagers will not develop AIDS before adulthood.

The number of AIDS cases reported in young adults provides a more accurate
picture of the HIV epidemic among adolescents. Since 1981 , 31 176 cases of AIS
have been diagnosed among 20- to 29-year-olds. This group, many of whom must
have been infected as teenagers , represents 20. 1 percent of all AIDS cases reported
to the CDC since the epidemic began. More than 26 percent of        all 13- to 29-year­
olds who have developed AIDS were diagnosed in the last year.

Some adolescents seem to be at higher risk than others. These youth are the ones
who have become displaced from society s mainstream and have fallen through the
safety net. They are referred to as " disconnected disenfranchised " or
 marginalized. " Generally out of home , out of school , and out of work , they spend
their days looking for food , shelter , recreation , and money on our urban streets.
They revolve through our system of juvenile courts and jails , mental health facilties
foster care homes , and runaway shelters. We refer to this group as "street youth.

Street youth lead troubled lives. Data from runaway and homeless shelters indicate
high rates among this population of physical and sexual abuse , emotional disturbance
including depression and suicide attempts , and ilegal drug use. 4 These problems can
be either the cause or the result of life on the streets.

Our definitional boundaries of street youth are intentionally fluid. Strict age limits
are undesirable because , unlike adolescents in stable residential and educational
environments , street youth are likely to have peers , sexual contacts , and needle
sharing partners who are older than the traditional cutoff ages of 18 or 21.
                                                                                 , "




Definitions based on behaviors are equally problematic because of
                                                                      he variety of
living arrangements and life histories among this population. For example , only a
small percentage of street youth visit runaway shelters. A definition based on such
visits would bar from consideration other youth in equally unfortunate situations and
at equal risk for HIV infection. For purposes of this report , therefore street youth"
refers to those adolescents and young adults who find their priary support systems
and social structures on city streets rather than at home or        in school.


The lack of firm inclusion criteria makes estimating the size of the street youth
population difficult. However , all people who meet the Federal definition of
homeless youth , and many who meet the Federal definition of runaway youth, could
be considered street youth. Estimates of the number of youth permanently on the
streets fall between 100 000 and 300 000, with as many as 1       00 to 2 000 000
running away from home each year.

Understanding the impact and future threat of HIV among street youth is critical for
two reasons. First , existing public health strategies for preventing and treating HIV
infection were initially developed for adult gay men and may have limited utilty         for
this population of young people whose lifestyles suggest more specialized approaches.
Second , recent medical developments indicate that use of AIS            therapies can delay
the onset of  symptoms among people infected with the virus. Ths makes early
identification of infected street youth crucial for improving their chances of longer-
term survval.

Several operating divisions of the Department of Health and Human Servces
(DHHS) oversee activities relating to HIV and adolescents. The list includes the
Office of Human Development Servces (OHDS) and virtually every component of
the Public Health Servce (PHS): the Alcohol , Drug Abuse , and Mental Health
Administration (ADAMHA); the Centers for Disease Control (CDC); the Health
Resources and Servces Administration (HRSA); the Indian Health Servce (IHS);
the National Institutes of Health (NIH); and the Office of Assistant Secretary for
Health (OASH). All of these agencies except NIH and IHS target street youth
specifically.

For instance , the National Institute of Mental Health (NIMH), within ADAM
funding research on the prevention and epidemiology of HIV among street youth.
The OHDS offers technical and financial assistance to local agencies providing
servces to street youth through the Runaway and Homeless Youth Program and the
Transitional Livig Program. A more detailed description of Federal activities
relating to HIV and street youth is contained in a separate report: "HIV Infection
Among Street Youth: Department of Health and Human Servces Programs and
Resources " (OEI- 01-90- 0050l).
METODOLOGY

The methodology for this study is based on literature searches and intervews. The
intervews consisted of: (1) formal telephone discussions with representatives of 13
national and 2 local organizations working on issues related to either adolescents or
HIV; (2) formal telephone discussions with staff from 20 providers of health care
and social servces to street youth , representing the two providers servg the most
street youth in each DHHS region of the country; (3) site visits to 3 additional
servce providers; (4) formal telephone and in- person discussions with 15 DHHS
offcials involved in adolescent or HIV-related research or programming; and (5)
supplemental discussions with several researchers , doctors , and government officials.
In addition , we requested and received wrtten information from several components
of DHHS documenting their efforts relating to HIV and street youth. A more
complete explanation of the methodology is contained in appendix B.
                                        FINDINGS

 BOTH THE RISK AND CURRENT RATE OF HIV INFECTION ARE ALOST
 CERTAINLY HIGHER AMONG STREET YOUT THN AMONG ADOLESCENTS IN
 GENERAL

 Thusand of young peple have bee infected and street yout ar in

 Data on seroprevalence (the prevalence of HIV infection in a
                                                                       pa          danger

                                                                given population)
among some groups of youth are collected by three Federal agencies: the Centers for
Disease Control (CDC), the Department of Defense (DoD), and the Job Corps, all

of which conduct HIV antibody testing. ? The CDC' s best estimate is that 74 550
young people between the ages of 13 and 24 are currently infected , including those
with AIDS. This is a rate of 1.8/1 000. The rate varies fourfold between
demographic groups , from 0. 8/1 000 for females both 13- 18 and 19- 24 to 4. 1/1 000 for
 19- to 24-year-old males.



Results from other studies and from DoD and Job Corps samples suggest that
seroprevalence varies greatly according to geographic and demographic boundaries
with poor urban youth hit hardest by HIV. Defense Department statistics show that
black and Hispanic males have become infected at far higher rates than miltary
recruits in general.lO The Job Corps data show that HIV is spreading most rapidly
in a few metropolitan areas. ll Additional data from CDC reveal that specific, high-
risk populations of urban youth face future devastation unless a cure for HIV disease
is found in time.

In our own survey of direct providers of servces to street youth , we asked for
estimates of seroprevalence among the client groups served. Three of the
organizations surveyed conduct their own testing and track infection rates as a formal
part of their program. The first is a youth shelter in a large southern city. Its
clients are being tested anonymously, and are testing positive at a rate near 30/1 000.
The second is another non clinical program located on the west coast which tests only
those clients who request it. Staff of this program report an infection rate of
110/1, 000. The third is a clinical program that serves and tests high- risk youth
referred by other servce providers in a large east coast city. Over the past year, 30
of the 95 youth referred to the program have   tested positive: a rate of 315/1   000.

High infectin rates among street youth are a predctable conseqe of th riky
behars tht constie      th lifestyle.
That many adolescents have already been infected with HIV should not come as a
great shock. Teenagers often become sexually active and begin experimenting with
 drugs and alcohol before they have developed the skills necessary to moderate such
 behavior. Over 60 percent of young Americans have sex before their 19th birthday.
 High rates of pregnancy and sexually transmitted diseases (STDs) indiCate that most
 teen intercourse is unprotected,13



 The behaviors that put street youth at risk for HIV infection are no diferent from
 behaviors that are risky for other adolescents ,
                                               but are probably more frequent and
 occur in a different and riskier environment. Eighteen of the 23 servce providers
 responding to our survey cited unprotected sex as the behavior most likely to place
 their clients at risk.               Frequently mentioned contributing factors included sex with
 multiple partners , prostitution , and non- IV substance abuse. 14
                                                                 In general
                                                                            , providers
 believe that high- risk
                       sexual behavior is much more common among their clients than
 IV drug use. On average , respondents reported that slightly less than 8 percent of
 their clients engage in IV drug use. In contrast, 34 percent consistently engage in
  survval sex      sex in exchange for a broad range of items , including shelter, food
 clothing, money, or drugs.

In addition to behavior-related risks , physiological factors may further endanger
adolescents. Researchers have noted that sexually active adolescents have higher
rates of some STDs than do sexually active adults , suggesting that an adolescent'

immunologic response to certain viruses may be weaker than that of an adult. One

question under consideration by physicians is whether the factors that                put adolescents
at higher risk for STDs also affects their resistance to HIV infection.

SPECIAL NEEDS OF STREET YOUT COMPROMISE HIV PREVENTON
TESTING, AND TREATMENT EFFORTS.

Prevenn: Bas sual need of street youth overhelm edatin efort aim
redg high-rik                  behavir.


Education has long been used as a primary public health prevention strategy.                  In the
context of HIV prevention , education efforts seem to have led to pronounced
changes in behavior among adult gay
                                                     menP    Among street youth , however, there is
compellng evidence that education by itself is inadequate as a prevention technique.

Nearly all providers we spoke with reported remarkably high levels of knowledge
among their clients about how to avoid HIV infection. Most have conducted tests of
their clients ' HIV knowledge before and after educational interventions. Estimates
of the proportion of clients who now know which behaviors are risky ranged as high
as 100 percent. Ten of 23 providers reported knowledge rates of 90 percent or
higher, with an overall average of 81 percent. Nevertheless , providers consistently
reported that knowledge has little effect on behavior. As described above
 youth.
 unprotected sex with multiple partners remains a common practice among street


 The reasons for this dissonance are complex and probably apply to most adolescents.
 But in the case of stteet youth , barrers to behavior change are even more profound
 and intractable. Providers reported that the need for food , shelter, or drugs
 displaces knowledge and fear of HIV risks. As one provider stated, " It (HIV
 prevention) all fles out the window when they don t have a place to sleep. " As
 mentioned above , many street youth exchange sex for shelter or money, and we
 heard anecdotal evidence from providers in several cities that their clients receive
 more money for sex without condoms.

Without exception , the providers we talked with identifed the shortage of accessible
survval necessities -- such as housing, food , and drug treatment - as a major
impediment to successful prevention efforts. Only 2 of 23 providers surveyed
believed that existing drug detoxification and rehabiltation servces are adequate to
meet clients ' needs. Research and advocacy organizations concurred with the
providers ' assessments , stressing the need for basic social support servces.

In the absence of an adequate supply of such basic servces , most of these providers
rely on prevention techniques that are not recognized as particularly effective , even
by those who employ them. Although all providers use pamphlets or other wrtten
materials and nearly all use educational videos , not one rated either of these
methods as particularly effective for changing behavior or preventig infection.

Beyond the barriers to changing a street youth' s behavior through education is
another factor that is less frequently recognized but highly relevant to HIV
prevention among this population: that of general health status and its relationship   to
transmission. Researchers believe that HIV proliferates when the immune system is
active; consequently, a young person who is il before she comes in contact with the
virus may be more likely to become infected. IS Malnutrition and use of drugs
(including alcohol and tobacco) also compromise general health statuS,t9 and there is
conclusive evidence that lesions associated with some STDs heighten the risk of
transmission.

Health and mental health problems among street youth result from a number of
factors , including poor nutrition and hygiene, as well as limited access to preventive
and primary health care servces. The relatively poor health status of most street
youth has been well documented in a study conducted under the auspices of the
Health Care for the Homeless project. The project s findings indicated that the
street youth studied were twce as likely to suffer from a chronic disease than a
control group of youth who were not homeless. Further, the percentage of homeless
girls with STDs was over three times that of their non- homeless counterparts. 20   This
'-I




       suggests that the same behavior may place a street youth at significantly greater risk
       of HIV infection than her healthy counterpart who is livig at home.

       Testig: Yout work often hete to te street yout for HW becaue of th             lack
       prope couneligan availble follw-up seres.
       Recent findings21 about the  abilty of zidovudine (formerly AZT) to prolong the life
       of inected but asymptomatic persons have important implications for street youth.
       In order for youth to receive such therapy, however                  (i.
                                                            , their serostatus  whether or
       not they have been infected) must be determined through testing.

       Despite recognition of the potential value of early identification and treafment of
       inected youth , national organizations and servce providers are highly ambivalent
      about the issue of testing. The source of this ambivalence is the inabilty of current
      testing sites to deal with the special needs of street youth. Five respondents from
      research and advocacy organizations expressed serious doubts about HIV testing
      because they questioned the resources available at or through test sites for youth
      who learn they are infected. Direct providers communicated the same concern:
      of 18 responding felt that existing test facilties are not equipped to deal with youth.

      By definition , street youth are without traditional social support networks that would
      faciltate access to counseling  and other social servces. Ideally, such servces should
      be linked to the testing process , particularly when an infection is confirmed. In the
      absence of such support , a street youth may learn of his infection at a time when he
      has no place to sleep, no connection with family, and no immediate prospects for
      getting off the street. The counseling that accompanies HIV testing, therefore , must
      be tailored to recognize such circumstances.



      Some providers reported suicidal ideation and actual suicide attempts to be common
      among street youth who learn that they are seropositive. There is some evidence
      that even youth who attend school and presumably have stronger support systems
      associate suicide with a positive HIV antibody test,22 One provider we intervewed
      has documented the incidence of this behavior among its clients who are seropositive.
      Over a two-year period , 89 percent of these youth have either attempted suicide or
      engaged in unusual suicidal ideation. Although the link between positive test results
      and suicidal behavior is stil being studied , anecdotal evidence such as this makes
      understandable the reluctance of some youth workers to recommend HIV testing for
      street youth.

      This is not to say that providers unanimously oppose testing. Most either provide
      some testing servces themselves or refer clients for testing at another site.
      Nevertheless , every provider in this category reported that the decision to test is
      made on a case-by-case   basis.   A number mentioned the availabilty of medical and
 suitabilty of testing.
 social servces for an HIV -positive youth as a primary factor in determining the.


 Treatm: Trnal meal              inns an steet yout don
The neglect and abuse suffered by street youth can make them distrustful and
reluctant to engage in treatment. One researcher                             homeless
                                                       describes the difculties
youth face in gaining access   to servces asfollows: "Emotional problems and drug
abuse problems , often in combination , exacerbate the difficulties of engagig and
assisting them. They may be openly rejecting of servces , particularly those that are
not easily accessible to them. Thus , they are easy to disregard and ignore. . . . 1123

Street youth are unlikely to seek out traditional institutions for care , particularly
because many such facilties actively reject them , considerig them poor risks and too
diffcult to manage. 24 The direct servce providers we surveyed, most of whom work
exclusively with street youth , deal with distrust and alienation by employing extensive
outreach programs. Eighteen of 23 reported using outreach workers to locate and
engage street youth in servces.      But clinical care programs , many of which are
hospital- based , are less likely to deploy resources for street workers to find infected
street youth and engage them in care. Many may not have the resources to conduct
active follow-up with youth who do not keep appointments or have difficulty
adhering to a prescribed treatment regimen. Every outreach worker we intervewed
described the problem of youth' s alienation from institutional health care as critical
in the overall HIV effort.

THE FIGHT AGAINST HIV AMONG STREET YOUT SUFFERS FROM GAPS IN
RESEARCH ON BEHAVIOR CHANGE MODELS, SEROPREVALENCE , AND
TREATMENT PROTOCOLS.


Behar change mols: Researche and provi lack both bas informtin on steet
    sexl behavir and mols for cuilg unafe sex and drg use.
youths'

Gaps exist in two areas of behavioral research. The first is purely descriptive.
Although a number of studies have been conducted to assess the nature and
frequency of youths ' sexual behavior , many experts agree that there is limited
knowledge about how teenagers decide to begin having sex and about the effects of
family, school , and peer group experiences on sexual behavior. 25 Given the lack of
data on the sexual behavior of adolescents     in general , it is not surprising that little is
known about factors affecting the sexual behavior of street youth in particular.
Information about these factors could add significantly to the design of prevention
programs aimed at modifyng behaviors that place street youth at risk of HIV
infection. The National Institute of Child Health and Human Development
(NICHD) has prepared the " Survey on Health and AIS Risk Prevalence " to gather
this kind of information about sexual  behavior in the general population. But this
survey will not yield information directly applicable to street youth. The data
gathered from a survey of this kind directed specifically at street youth could provide
some of the baseline information necessary for the design of effective prevention
programs for that population.

Research has also been sparse in . the more general area of developing and evaluating
the effectiveness of HIV prevention strategies for youth. 26 There is considerable
debate among researchers and practitioners about the relative merits of various
behavior change strategies in the context of HIV prevention among adolescents.
Some evidence suggests that prevention programs in other health areas such as
smoking and teenage pregnancy hold promise for adaptation to HIV prevention.
There is conflcting evidence about the effectiveness of peer-based education
strategies. While some practitioners have found peer education to be popular with
youth and useful in transferrng information , others believe that peers lose their
credibilty once they are perceived as counselors.

There is no simple strategy for transferring to younger adolescents behavior change
strategies that were effective with adult gay men. The need for modifyng behaviors
was strongly reinforced among older men by familarity with peers who were sick and
dying of AIDS. But because few infected youth show any symptoms , most street
youth are unfamilar with the shocking and visible signs of AIS.


Seroprevalee: Because of    inffnt data attn and mone ma not be inves
whee the are most need
Because of the lag between infection and onset of symptoms , the President'
Commission on the Human Immunodeficiency Virus Epidemic recommended in 1988
that researchers focus on HIV infection rates rather than AIDS case reports to
measure the progress of the epidemic. 28 To date , no national , statistically reliable
seroprevalence survey of street youth has been conducted. In fact , it is unclear
whether such a survey is possible , given the relatively low number of subjects and
their potential unwillngness to participate in such a study. The lack of accurate
seroprevalence data , however, may have immediate and negative consequences for
street youth in some cities and the organiztions servng them.

A new CDC initiative , proposed for Fiscal Year 1991 , provides an ilustration of the
problems facing program designers caused by lack of seroprevalence data. The
Division of Adolescent and School Health , within CDC, requested $5. 2 milion dollars
to fund as many as six city health departments for the purpose of establishing HIV
prevention programs for out-of-school youth. To be eligible , cities must have
reported at least 2 900 AIDS cases to the CDC by December 31 , 1989. The eight
qualifyng cities are Chicago , Houston , Los Angeles , Miami , New York , Newark , San
Francisco , and Washington , D.
  But the number of total AIDS cases , as discussed above , may be a poor indicator of
  HIV prevalence , especially among street youth. By relyig solely on total AIS
  cases , CDC may be . missing some cities with equally high rates or large numbers of
- cases of HIV infection among street youth in comparison to the eight cities just
  mentioned. For example , the list of eight cities with the highest current inection
 rates    among Job Corps applicants does not include Newark, Houston, Los Angeles or
 Chicago. Instead , Atlanta , Birmingham , Cleveland , and Baltimore are among the top
 eight. Alternatively, if   raw numbers  of infected Job Corps candidates are considered
 the list of eight cities hit hardest by the epidemic includes Norfolk, Philadelphia , and
 St. Louis. Samples from the Job Corps applicant population, while not a perfect
 substitute , almost certainly give a better indication of the problem among street
 youth than total AIDS cases.

 There are probably a number of reasons for the lack of reliable seroprevalence data
 on youth. In the course of our study we heard several possible     explanations
including: 1) because of the small number of AIDS cases among adolescents during
the early years of the epidemic , this group was not considered to be at risk; 2) the
transient and secretive nature of this population makes them diffcult to reach
through traditional epidemiologic methods; 3) geographic and ethnographic
differences among subpopulations of street youth make extrapolation and
generalization to the population as a whole highly speculative; and 4) researchers
and clinicians were concerned about the ethics of testing this population for a fatal
and stigmatized disease in the absence of medical interventions and social support
mechanisms.

An obvious use for additional seroprevalence data is resource allocation. In the
coming years , budget constraints will likely force public and private managers to
direct money and staff to very specific areas and people. AIS case reports are of
very limited utilty in this regard , because they only reflect what was occurrng a
decade ago. On the other hand , HIV antibody status yields immediate information
on the spread of the epidemic.



Treatm protocols: Manifestatin of HW diease in adlecen is an
phemen.
Complicating the problem of getting youth into medical care are unanswered
questions about appropriate clinical protocols for treating youth. Each clinical
provider we intervewed expressed concern about the dearth of knowledge regarding
physiologic and pharmacologic aspects of treating HIV-infected youth. With the
exception of adolescent hemophilacs , adolescents have not been the subjects of
systematic study in such areas as immune response, length of the HIV latency period
disease progression , or response to pharmacologic treatment.
                                                                                , "




As an example ,   until 1989 there were no adolescents from 13 to 17 years of age
enrolled in the national clinical trials program. 29 By October 1989, only 47
adolescents who were seropositive had been enrolled in trial protocols of zidovudine
and other HIV-related therapies , and most were male hemophilacs. 30 Weak
representation of adolescents  among clinical trial subjects can have important
consequences: data collected during the trial process are used to determine
appropriate dosage levels and schedules for subpopulations of patients. Since gender
and age-specific factors can affect dosage , effectiveness , and toxicity of drug therapy,
more information about the pharmacodynamics (what drugs do to the body) and
pharmacokinetics (what the body does to drugs) of various therapies as applied to
adolescents could enhance the quality of available treatment.

Questions about disease progression and ilness rate among infected      adolescents also
have critical implications for providing high- quality care. As one clinician who has
recently begun treating HIV - positive youth in a clinic-based program told us I need
to know more about which AIDS-related ilnesses are likely to strie my patients and
how those ilnesses will manifest themselves in younger people. For example , are my
patients likely to suffer from dementia , and if so , what will dementia look like in a
teenager and how best can I treat it?" The need for more extensive scientific
inquiries about the natural history of AIDS among young people has been described
by other clinicians and experts as " crucial in order to address , in a timely and
comprehensive manner , the unique problems confronting adolescents with or at risk
of HIV/AIS. "31
AT THE LOCAL LEEL. CATEGORICAL REQUIREMENTS AND FRAGMENTD
PROGRA SmUCTURES WEAKEN SERVICE DELIERY FOR SmEET YOUT
WIT OR    AT RISK OF HIV INFECTION.


Even whe a range of serves is offered categorial reqemts and othe acces
barr freqtly renr thoe seres inccesle to street youth.
Even the servces that are offered to street youth on paper may be inaccessible in
practice. Twenty of the 23 direct servce providers in our survey reported signifcant
barriers for their clients in accessing existing clinical and social servces. The most
frequently cited barrer (mentioned by 15 providers) is lack of abilty to pay for
needed servces.

Not only do street youth lack money to pay for servces , but they are frequently
denied eligibilty for Medicaid because they do not have Social Security Numbers or
birth certificates and other required documentation. Sometimes the time and
patience required to obtain the documentation and fill out forms and paperwork is
 simply beyond the capabilties of adolescents weary or afraid of dealing with the
 system.
 Beyond the cost of care are other barrers , many of which are more complex than
 the payment issue. During each of our site visits , providers and health offcials alike
 described a number of serious access               barrers to   programs that would otherwse
 appear to meet some of the special needs of street youth. The following                are
 examples:

                           Limitations on the rights of minors to consent to their
         Consent Requirements: 


own treatment can create formidable obstacles to care. The laws, regulations , and
court decisions that govern consent are highly complex. There is little consistency
among States: some permit minors to enroll themselves in mental health and drug
rehabiltation programs , while others require parental consent. Virtually every State
allows minors access to certain servces associated with SID treatment but some
insist on complicated and time-consuming legal procedures beforehand.

        Age Limits: 
         By our definition , street youth may range in age from early teens up
to about 24 years old. After age 18 , however, youths become ineligible for a number
of critical servces. For example , under the Department' s Runaway and Homeless
Youth Program , funds given to shelters may not be used to provide servces to
youths over age 18. Older street youth may be referred to adult shelters that are
 wet"     residents are currently using alcohol and other addictive substances).
           (i.
These shelters house a subpopulation of homeless people very unlike the youths
peer group. In many such cases , sleeping on the street is a more desirable option.
Age may also serve as a barrier to drug therapy for youth who are already infected.
One project we visited was funded to provide zidovudine treatment only for
seropositive youth age 18 or younger.

                             Many programs funded to house street youth limit clients
        Length of Stay Limits: 


to 15- or 30- day  stays. Designed to serve as temporary placements for emergency
use , these shelters are increasingly faced with youth who have nowhere to go after
this time has elapsed since for many street youth homelessness is not a temporary
problem. Program managers from across the country expressed frstration with the
absence of longer- term shelter programs. One project in Los Angeles has had a
success rate of over 70 percent (measured by the proportion of youths who do not
return to street life and are able to support themselves) but only among youth who
were offered structured shelter care for at least seven months.

                                      Other requirements imposed in some programs
        Other Conditions of Partcipation: 


may effectively exclude homeless youth from enrollment. At one site we visited
program staff reported the case of a highly motivated young girl who applied for
admission to a residential drug program well-known for its high rate of success.
                                                                   " "




 After clearing a morass of legal consent hurdles ,    they learned that the drug
 program s family-syst m approach requires that parents , spouses , siblings or
  significant others " take an active part in the treatment process , both for immediate
 support purposes and continuity of care after discharge. Unfortunately, the young
 girl' s family meribers were completely disengaged from her, and her peers (who
 might otherwse have served as significant others) were other homeless youth who
 were struggling with their own life problems. Requirements like this one may have a
 sound clinical base , but may also result in exclusion of patients who are not part of
 traditional family settings.

Fragmtin of fug soures and diferen idloal apprache                       impoe serus
barr to sere delier.
Given the broad and diverse range of problems that street youth have , the need for
servce coordination and collaboration among caregivers cannot be overstated. Yet
during every site visit intervew we conducted , the issue of servce fragmentation was
identified as a serious problem. To some degree , fragmentation is the result of
separate funding streams and program designs , many of which are managed by
DHHS. But poor coordination at the Federal level appears to be only one of a
range of factors that splinter servce delivery for street youth.

In some respects , the particular circumstances of servce fragmentation are unique to
the locality in which servces are delivered. For example , because of their city'
geography, providers in Los Angeles must deal with imposing transportation
problems when attempting to design and coordinate a treatment plan for a street
youth. Distance alone can serve as a serious barrer to a patient s compliance as
well as to collaboration among care givers. But there do appear to be some factors
that promote fragmentation no matter where the programs are located:

     Separate Funding From a  Variety of Sources:  Many providers expressed frstration
with the classification of youth into categories such as "runaway,
                                                                      prostitute " or
 drug abuser. " This results from funding programs designed to address discrete
problems as opposed to the interrelated needs of individuals. Exacerbating the
diffculty is that sources of these "problem funds " are at different public and private
levels. The following example , provided by a senior local public health offcial , may
serve to ilustrate the potential outcome of fragmented funding streams: Data
gathered by the local public health department showed a significant increase in IV
drug use in a certain sector of the city. At the same time , seroprevalence rates in
that neighborhood began to increase , according to public hospital and clinic data.
separate actions , three different organizations (one drug treatment program , one
youth servce agency, and one community-based health clinic) applied for and
received three separate grants from a Federal agency, a private foundation , and a
State agency. All three applied for and received a major portion of overall funding
                                                                                 , '





 designated for outreach workers. In                    the health official's words we. had outreach
workers tripping aU over each other out there. In fact , we probably had more
outreach workers on the streets than clients when all three programs were in full
operation. At the same time , we went beggng for outreach work in other parts of
the city.

    Competition Among Providers for the Same Funding:
                                                          In some cities that have been
particularly hard hit by the epidemic , competition among providers for funding can
be fierce. Many small, community-based agencies believe they are out-
                                                                         gunned by
larger, more traditional institutions and consequently find themselves in even more
intense competition with one another for a relatively small piece of the funding pie.
This is not to say that such rivalries preclude any cooperation , but they clearly do
not promote the kind of teamwork among providers necessary to maxmize available
resources.

    Diferent Ideological           Philosophical differences among providers can
                                      Approaches:

also be an impediment to coordinated care. The most frequently mentioned example
of this phenomenon was in the area of drug treatment. Many drug rehabiltation
programs are premised on a 12-step model that other servce providers believe has
limited relevance for homeless youth who are addicted to non- IV                        drugs. Providers
told us that " even the language they (drug rehabiltation staff) use is foreign " to other
social servce workers.

Similarly, there are differences among servce providers about the relative emphasis
that should be given to case                    management and to collocation as methods of
integrating the delivery of servces to street youth. Through the case management
approach , street youth in need of servces are paired with youth workers who can
help guide them through " the system. " Many of those working in this field have
viewed case management as a core servce that is vital to any sustained effort
directed to street youth. Indeed , it has become a centerpiece of many demonstration
and other project grants concerning street youth.

Yet other servce providers ,  including many we met with , note that case management
for street youth is frequently duplicated. They also note that it can be ineffective
unless the case managers physically accompany their clients to appointments -- a
practice that can put a severe strain on the supply of time and money. These
providers suggest greater emphasis be placed on collocating HIV counseling, primary
preventive medical care , and other key servces under one roof. This approach , they
emphasize , would minimize transportation problems and reduce the occurrence of
missed appointments. However, it would require a considerable capital investment
and could itself lead to some unnecessary duplication of servces.
AT THE FEDERAL LEEL. THE OVERALL RESPONSE TO THE PROBLEM OF HIV
INFECTION AMONG STREET YOUT IS INADEQUATELY FOCUSED AND
COORDINATED.

Th   breach in coordtin ha      especill severe   ramifiatins for efort involvig HW
and street youth.

Coordination within DHHS is particularly important as far as HIV and street youth
are concerned. The responsibilty for virtually every piece of the fight against HIV is
perceived to be shared by more than one Departmental agency. We asked
Department officials to identify which part of the Department , if any, should have
responsibilty for nine separate functions related to combating HIV among street
youth. For all but one function , at least 5 of the 14 respondents identified more
than one agency. 34   Nine thought that " determining what behaviors most commonly
lead to the spread of HIV among the street youth population " should be a shared
dUty. 35 Eight thought that more than one agency should " design and evaluate
programs to promote behavior change among street youth. "36 The only function that
seems to lie clearly within a single agency s domain is " determining how many street
youth are infected , and where they are. " Twelve of the fourteen Department
officials responding thought that this was CDC's responsibilty. Stil , five of the
respondents named another agency instead of or in addition to CDC.

The National AIDS Program Office (NAPO) is supposed to "serve as the Public
Health Servce focus in coordinating and integrating efforts to prevent and control
the occurrence and spread of HIV infection and AIDS:'37 Its abilty to perform that
duty may be hampered , however , by several circumstances. First , Departmental
bodies which are not part of the PHS have little or no representation at NAPO-
organized meetings. For   instance OHDS , which sponsors several programs for street
youth , does not have an offcial member on the PHS HIV Leadership Group, the
PHS Executive Task Force on AIDS , the Panel on Women , Adolescents , and
Children with HIV Infection and AIDS , or the Federal Coordinating Committee on
the HIV Epidemic. Its absence from the last group is particularly surprising, because
the Federal Coordinating Committee goes beyond the PHS to include such agencies
as the Environmental Protection Agency and the National Aeronautics and Space
Administration.

Another limit to NAPO' s effectiveness may be its emphasis on coordinating PHS
programs that are directed at people with access to traditional educational and
medical systems. One former NAPO employee told us that HIV-related activities
aimed at street youth might be better coordinated through a body focused on the
homeless rather than on the disease. Finally, NAPO' s mandate appears to be
limited to organizing meetings and "networking. " It has no control over resource
allocation or grant specifications. The decisions on particular programs and policies
are ultimately left to the individual PHS components.
 The exclusion of OHDS from the PHS coordinating process may explain the 1990
 announcement of the Drug Abuse Prevention Program for Runaway and Homeless
 Youth. 38 This program is sponsored by OHDS' s Family and Youth Servce Bureau.
 The announcement acknowledges the link between substance abuse prevention and
 HIV prevention. But the only Federal agencies listed as sources of information on
 HIV and runaway youth are the National Institute on Drug Abuse (NIDA) and the
 Offce of Substance Abuse Prevention (OSAP). Applicants for this program could
 clearly also benefit from contact with NIMH, HRSA, and CDC.

Another example of a coordination gap is the existence of two Federally funded
curricula on HIV prevention for high-risk youth. In 1987, NIDA' s Community
Research Branch contracted with Westover Consultants to produce and distribute the
AIS High    Risk Adolescent Prevention currculum. Also in 1987,      CDC' s Division of
Adolescent and School Health awarded money to the National Network of Runaway
and Youth Servces to develop the " Safe Choices Guide: HIV and AIDS Policies and
Prevention Programs for High- Risk Youth. " Both are aimed at youth servce
organizations , some of which are funded directly by OHDS , and include basic
educational information and suggestions for promoting safe behavior. We did not
investigate thoroughly how or why both projects were funded simultaneously. There
may be valid reasons for having two similar curricula , such as comparing their
relative effectiveness. But it appears that they were not originally designed to
complement each other, and on the surface there is no apparent need for both.

The above discussion aside , there are parts of the Department that seem to be
making progress in fighting the epidemic among street youth. For instance , national
 advocacy and research organizations applaud the Centers for Disease Control'
 concern for street youth and other adolescents at high risk of HIV infection. The
 CDC was the agency most often cited by these organizations as doing particularly
well in this area. Both the Center for Prevention Servces (CPS) and the Center for
Chronic Disease Prevention and Health Promotion (CCDPHP) have been supporting
HIV prevention efforts specifically targeted to out-of-school youth. In August 1989
CDC held an internal meeting to identify the most crucial components of HIV
prevention programs for out-of-school youth. In October 1989, the Deputy Director
for HIV of CPS served as moderator to a PHS Bi-Regional Consensus Conference
on HIV and runaway and homeless youth. The resulting recommendations from
both gatherings addressed all the key issues raised in this report , including the need
for provision of basic servces to street youth and for coalition building between local
servce providers. Although the General Accounting Office recently stated that

 CDC has accomplished relatively little in providing HIV education to out-of-school
youth "40 CDC appears to have the knowledge , experience , contacts , and commitment
to promote effective HIV prevention programs for street youth in the future.
Street yout   at rik of HW infectin seem to attct                       attn frm

th Depart th puli           trna       yout advocate
                                                    comparatiely lile
                                                        an Congres.

Of the many groups who have been hit hard by HIV, street youth seem to have
been the focus of relatively little publicity and political action. Concerted attempts
to influence public policy on HIV-related issues remain largely the work of the adult
gay community. Public compassion for people with AIS seems to be directed
mainly to those who are considered "innocent " such as newborns and recipients of
infected blood products. For example , the only teenager with AIS who has
received national attention and sympathy was Ryan White, a hemophilac who died
in April 1990. As one Federal offcial told us , street youth have "fallen through the
cracks. . . . The heartstrings go out to the young children -- not to the 13- or 14­
year-old involved in prostitution.

Street youth may lack sufficiently strong voices in Washington. Two of the most
well- known and respected advocacy groups for children s issues did not participate in
the survey we conducted for this report. One referred us instead to a publication of
theirs that was outdated and contained little information directly relevant to street
youth. The other was willng to participate , but felt that they could add little in
terms of opinions or insight beyond what was contained in their existing publications.
Again , these publications were clearly focused on younger children in traditional
settings , and had little to say with regard to street youth. Furthermore, congressional
interest in this population appears limited. The only committee to have held
hearings on the matter of HIV and street youth recently is the Senate Committee on
Governmental Afairs , whose mandate to investigate these issues is indirect at best.

The general absence of focus on street youth may help to explain the Department
comparatively minimal response to the HIV epidemic in that population. When we
asked our survey respondents to rate the overall response of the Federal government
to the epidemic among adolescents , the ratings they offered were consistently lower
in relation to street youth than to youth in general. This was reflected in the
responses of direct servce providers , national organizations , and even HHS
offcials.

In sum , street youth are easily invisible as a group, have no natural advocacy group,
and do not generate the concern directed to other populations most at risk of HIV
infection. It should not be surprising, therefore , that they have not become a
primary focus of Federal policy makers ' attention in the overall HIV effort.
, I





                                             RECOMMENDATIONS

            THE PUBUC HEATH SERVICE

              Puli Healt Ser thugh th Cers for Diseae Cont~ shoul
                                                                  condt
                                                                            ep
            Th

            adna serprevalee reseah to mee th scope of th      amng steet
        yout
            In order to allocate resources   efficiently, policy makers and program managers must
        have a clearer picture of where and to what extent street youth are becoming
        infected. Another reason to collect seroprevalence data is to demonstrate the
        severity of the problem. The long HIV incubation period means there will probably
        never be a comparatively large number of teenagers           diagnosed with
        how many teens become infected with the virus. Many teens who become infected
                                                                                      AIS no   matter

        will not develop AIDS until they become adults.

        Given the difficulties in generating valid national data on seroprevalence among
        street youth , it seems more appropriate to focus on locality-based data. Collecting
        such data is necessary if scarce resources for prevention and treatment are to be
        apportioned effectively. Because infection rates are likely to differ significantly
        between and perhaps even within metropolitan areas , a large number of sites must
        be selected for study.



       In collecting and analyzing seroprevalence data on street youth , CDC should make
       full use of reliable data collected from other sources , both public and private. The
       CDC should make all data easily available to researchers and servce providers.
                                                                                           This
       data should be as detailed as possible without jeopardizing individual privacy rights.

       Th        Puli Heahh   Sere shoul collct baseli       data   on   th sex behar patter
       of street youth.

       In response to the call by researchers and practitioners for more and better
       information on factors that encourage high- risk sexual behavior among street youth
       the PHS should move quickly to collect this information. The data should be
       gathered from several metropolitan areas with large concentrations of street youth.

       Th        Puli Heahh Sere, thugh the Akoho~ Drg Abuse, and Menl
                                                                        Heahh
       Admtratin         and th Ceers for Diease Cont~ shoul condt reearch on
       behar change strte degn to rede the rik of HW infectin among steet
       youth.
 In the absence of a vaccine ,    only behavior change will slow or stop the spread of
 HIV. As mentioned previously, interventions developed for smokig cessation and
 pregnancy preventiop may hold promise for HIV prevention efforts, but there has
 been little systematic evaluation of such efforts. In the meantime , resources have
 been channeled to traditional education-as- prevention efforts that clearly have limited
 utilty for street youth. . Therefore , behavior change among street youth in particular
 should be a high priority for additional research efforts. What works for adolescents
 in general should not be presumed to work for street youth, because the physical
 demands and psychological effects of street life inhibit the success of traditional HIV
 risk reduction interventions.



The PHS' s   research agenda should include modification strategies for all behaviors
that place adolescents at risk, including substance abuse as well as high-risk sexual
activity. It should continue the search for more effective treatment technologies for
users of current drugs of choice such as " crack" cocaine. Because several ADAM
components (including NIMH , NIDA, OSAP , and the Office of Treatment
Improvement) and the CDC have expertise in these areas , PHS should coordinate
research initiatives through its Panel on Women , Adolescents , and Children with HIV
Infection and AIDS.

Th   Puli Healt     Sere shoul condt research on th          natul   hitory
maniestatin of HW infectin in adlecents and deelop           approprite counelig,   tetig
and clial protocols for treatig youth who are infected

Use of zidovudine and other therapies to delay the onset of symptoms among those
infected with HIV represents a major breakthrough in treatment of the disease. But
the use of these therapies for young people may be inhibited by a lack
information on the progress of the disease and the effects of such treatments on
adolescents. The PHS should therefore further expand its current research efforts in
both areas. Disease progression     among adolescents should be studied more
thoroughly and young people, especially young women , should be represented more
broadly in the clinical trials of therapies designed to treat the disease. Data from
trials can then be used to guide practitioners in developing treatment protocols and
determining appropriate dosage levels , dosage schedules , and treatment of adverse
reactions.

THE PUBUC HEALTH SERVICE AND THE OFFICE OF HUMAN DEVLOPMENT
SERVICES

Th   Puli Heahh Sere,       in collboratin wi      th Ofe of Hum Deelopm
Seres shoul degn an imple a strteg to cu HW infectin amng street
yout in si   ci
             wih large popultins of street yout and high rate of HW infectin.
 Local- level servce fragmentation and access problems discussed in this report cannot
 be resolved completely by Departmental efforts. But a combination of technical
 assistance , financial support , and removal of categorical barrers at the Federal level
 would create an environment in which servce delivery reforms could be made.

 We believe that a strategy of focusing on a small number of large urban centers    with
 high HIV infection rates is warranted for three major reasons. One is that by
 concentrating on specific localities , the particular
                                                       tyes of servces and servce
 linkages needed can more readily be identified and implemented. A second is that
 by directing an intensified effort at cities with large populations of street youth and
 high rates of HIV infection , the Department can have a sizeable impact on the
 national problem. And finally, by carefully evaluating the effort , the Department and
 others can gain insights on how to respond more effciently and effectively to the
 needs of street youth throughout the country.

As noted earlier in this report, the CDC is already planning an initiative for FY 1991
geared to preventing HIV infection among street youth and other youth at high risk.
The PHS is therefore the most logical agency within the Department to assume lead
responsibilty for implementation of this recommendation. Nevertheless, the PHS
should not rely on the CDC initiative to fulfill the recommendation. The PHS
should also ensure that the CDC initiative is planned and carred out in collaboration
with OHDS because of that agency s direct programmatic responsibilty for the street
youth population , and with other components of the PHS.


A number of researchers , practitioners , and non-profit organizations have done
extensive , and in some cases , exemplary work in examining implementation problems
and testing reform models. Staff of the Robert Wood Johnson Foundation as well as
participants in the West Coast Scientific Symposium on Health Care of Runaway and
Street Youth are two examples. Therefore , we strongly urge PHS and OHDS to
ensure that experts from organizations like these participate formally in the planning
and development of the six- city strategy.

The HIV prevention strategy should encourage local initiatives; facilitate the
provision of basic servces that address the survval necessities of street youth; make
use of existing Federal programs such as the Runaway and Homeless Youth
Program , the Transitional Living Program , and others; and foster the integration of
servces directed to these youth.   This would be   consistent with the Secretary
interest in promoting servce integration.

Making headway against HIV infection among street youth will require testing a
number of specialized approaches to servce delivery and grant program design. As
we have not had an opportunity to review CDC' s plans for its FY 1991 initiative , we
cannot be sure whether the initiative will incorporate these approaches. Therefore
. .




      we recommend that PHS and OHDS include in their strategy, either as part of the
      CDC initiative or as an adjunct to it , evaluations of the following measures:

       1. 	   The allowance of                                                  Such waivers
                                   waivers to some categorical program requirements.

              could be helpful in developing servce interventions which respond in a more
              efficient and effective manner to the multiple , interrelated needs of street youth.
              They might also provide a way to serve youth over age 18 if the alternative
               adult" resources are not appropriate for older adolescents.


      2. The allocation of      fund for local planning efforts and the requirement that further
              funding depend on demonstrated  collaboration among service          The providers.

              Robert Wood Johnson Foundation has taken this approach recently with some
              apparent success. The intent is to foster cooperation among a diverse group of
              agencies and professionals who may be otherwse inclined to work independently
              or competitively.



              The use of a single coordinating or "anchor" agency within each community.    The
              designation of a single community focal point for organizing the servce
              interventions can faciltate the most efficient and effective use of the limited
              resources available. Ideally, such a focal point would be designated through the
              collaborative efforts of the local servce providers.

      4. The collocation of some services for street youth.     As we have noted , street youth
              are often quite resistant to established health and social servces. To the extent
              that such servces are immediately accessible to them , their readiness to use
              them and their opportunity to benefit from them may be enhanced.
" ,





                              COMMENTS ON THE DRAFr REPORT


         We received comments on the draft report from the Public Health Servce (PHS),
       - the Office of Human Development Servces (OHDS), and the Assistant Secretary for
         Planning and Evaluation (ASPE). In appendix A, we present the detailed comments
         from these Department of Health and Human Servces (HHS) components, and our
         responses to the comments. These comments reflect general concurrence with the
        thrust of our fidings and recommendations , and contain several suggestions and

        technical corrections relating to specific sections of the report We have

        incorporated a number of these suggestions into the text.


        We altered the final three recommendations in response to PHS' s comments. The
        alterations to the   recommendations for behavior change and HIV manifestation
        research were of a technical nature , and are explained in appendix A. The change
        to the final recommendation deserves further comment.

        In the draft report , our final recommendation called for OHDS, in collaboration with
        PHS , to design and implement a five- city initiative to curb HIV infection among
        street youth. In concurring with that recommendation , PHS expressed the desire to
       take the lead for that initiative because its Centers for Disease Control (CDC) is
       already planning to implement a new six- city program with the same goal. Given the
       advent of this new initiative (which at the time of our draft report had not been
       funded), and given the lack of a comparable new initiative within OHDS , we have
       upon further reflection changed our recommendation to make it more compatible
       with PHS' s existing plans. Specifically, we now call for PHS rather than OHDS to
       take the lead in implementing the new initiative , and call for the strategy to be
       implemented in six cities rather than five. We have also revised the text of the
       recommendation to highlight our feeling that certain components of the new strategy,
       which mayor may not be in CDC' s current plans , must be included on at least an

       experimental basis.


       Both PHS and ASPE commented on our discussion of the National AIS Program
       Office (NAPO). For reasons discussed in appendix A, we believe that an evaluation
       of NAPO' s mission and performance may be in order.
. .




                                        APPENDIX A

                   DETAILED COMMENTS ON THE DRAFT REPORT
                     AND OIG RESPONSE TO THE COMMENTS

      In this appendix we present the full comments of all the parties that responded to
      the draft report and our response to each set of comments. We received comments
      on the draft report from the Public Health Servce , the Offce of Human
      Development Servces , and the Assistant Secretary for Planning and Evaluation
      within the Department of Health and Human Servces.
          DEPARTMENT OF HEALTH & HUMA SERVICES                     Public Helt   Seic
  r.
              OCT I 8 
    190                                     Memorandum
Date

From       Assistant Secretary for Health


Subject    OIG Draft Report " HIV Infection Among Street Youth
           OEI-Ol-90-00500
           Inspector General , OS



           At ta ched are t he PHS commen t s on the subj e c t report
                                                              s finding s

           and recommendations. We concur with the recommendations and

           have taken or plan to take actions to implement
                                                           them.
           suggest slight revision and re- wording of the last three
           recommendations in order to more appropriately elicit the
           of effort needed to address the report s findings.                      scope




           At ta chme nt
':   .. .                                     --




                  COMMENTS OF THE PUBLIC HEATH SERVICE (PHS) ON THE

                 OFFICE OF INSPECTOR GENERA (OIG) DRAT REPORT " HIV

                     INFEC'lION AMONG STREET YOUTH, " OEI- 01- 90- 00500


            General Comments


            This draft report concludes that there is a relative dearth of
            Federal programs targeted to human imunodeficiency virus (HIV)
            infection and street youth. The term street youth"
            encompasses several groups including homeless, ruaway, and out
            of school youth.   Al though increased effort in this area can be
            justified, the report should take into consideration the

            significant  numer of Federal programs that are cross-cutting
            with respect to target populations, street youth being only one
            of them.   Programs in many agencies may not be specifically
            titled " Street Youth, " but may have notable impact on that
            population.
            A list of programs, many of which are HIV related, specifically
            targeted to street youth was forwarded to OIG at the outset of
            its investigation. These programs have been included in a
            companion directory of programs" to be released in the future.
            We believe that this directory should be included as an
            appendix in this report. It would be misleading to point out a
            dearth of programs in the Federal system and then at a latter
            date release a report with 50 or more Federal program targeted
            to HIV and street youth.

            The report interprets data from runaway and homeless shelters
            to indicate that many of the problems of street youth, such as
            physical and sexual abuse, emotional disturbance, and illegal
            drug use can be the cause or result of life on the    streets.
            However, little in the recommendations addresses the . pre-
            street" phase where many factors combine    , ultimtely, to
                                                                      prompt
            a youth to enter street   life. This report should recognize
            that programs to understand and intervene with troubled
            famlies, school- based   detection program, and other primry
            prevention activities need to be a priority also.

            The National AIDS Program Office (NAO) is portraye as having
            limted  effectiveness in coordinating the various PHS
            components because it has no control over resource allocation
            or grant specifications. . NAO works directly with the PHS
            agencies and the Assistant Secretary for Health (ASH) in
            determning the priority areas for Hrv funding on an       anual
            basis, via the budget cycle. Hrv planing initiatives and
            budget requests of the various agencies must first be
            to            review.
                                                                        subtted
               NAO for           Based upon these     review,
                                                           NAO maes
            funding recomendations directly to the ASH.        Fuer,
                                                                   though
            the ASH, NAO exercises its influence in program planning at
            the agency level throughout the year.

\ .




      OIG Recommendation


           PHS, through the Centers for Disease Control (CDC), should

           conduct additional seroprevalence research to measure the

           scope of the epidemic among street youth.


      PHS Comment


      We concur. Through CDC, the Department is already conducting

      seroprevalence research to measure the scope of the   epidemc
      among street youth. CDC collects data from Job Corps entrants,
      sexually transmitted disease clinic clientele, women' s health
      clinics, drug treatment centers, adolescent health centers,

      sentinel hospitals, family planning clinics, clinics that

      specifically serve homeless and street youth, juvenile

      detention centers, and other sources that collectively provide

      data about seroprevalence among high risk youth, including

      street youth.


      In addition, CDC has planned an initiative to address street
      youth that is included in the President' s fiscal year 1991
      budget request. Through this initiative, CDC will assist local
      governental and non- governental agencies that serve street
      youth in six cities to plan, implement, coordinate, and
      evaluate studies of seroprevalence among street youth, the

      prevalence of risk behaviors among these youth, and of factors

      that influence the establishment of these behaviors.


      OIG Recommendation


           PHS should collect baseline data on the sexual behavior

           patterns of street youth.


      PHS Comment


      We concur. Through many different organizations and agencies

                                                      thtabut
      that serve youth, CDC, and hence PHS, collects data
      sexual and other risk behaviors of street youth      result in
      HIV infection. CDC provides fiscal and technical support to
      six national organizations to help youth-serving agencies
      provide HTV education for out-of-school youth. The Rational
      Network of Runaway Youth services is one of these
      organizations. CDC    also directly funds 67 comunty-based
      organizations across the nation to provide HTV education to a
      variety of populations, including street youth. Of the 67
      organizations, 44 target youth populations. Of these 44, 5 are
      working solely in schools, 39 are working with youth in various
      settings in the inner city, mostly minority com
      specifically target homeless or ruaway youth.
                                                         ties, and 5
In addition, a CDC initiative to address street youth that is

included in the President' s 1991 budget will assist local

governmental and non- governmental agencies that serve street

youth in six cities to plan , implement, coordinate, and

evaluate the prevalence of risk behaviors among these youth,

and the factors that influence the establishment of these

behaviors.
Also, CDC' s National Center for Health Statistics plans to

conduct a household- based National Health Interview Surey
Adolescent Supplement in 1992 to assess the comparative

prevalence of the same risk behaviors among a national

probabili ty sample of school- and college-age youth who attend

school or college , and those who do not.


OIG Recommendation


     PHS, through the Alcohol, Drug Abuse, and Mental Health

     Administration (ADAM)  , should conduct research on
     behavior change strategies designed to reduce the risk of

     HIV infection among street youth.

PHS Comment


We concur with the intent of the recommendation, but suggest
that it be revised to encompass all PHS agencies. Since
research to assess the effectiveness of behavior change
strategies designed to reduce the risk of infections among
various populations, including street youth, is being conducted
by ADAM and CDC, we recommend that the recommendation be
revised as follows:
      PHS should ensure collaboration among the various

     agencies that conduct research on behavioral change

     strategies designed to reduce the risk of HIV infection

     among street youth.


ADAM' s efforts in this area have been well-documented.   CDC
has implemented several research and demonstration projects to
evaluate behavioral change strategies designed to reduce the
risk of HIV infection among street youth.  In collabration
with the City of Chicago Departent of Health, the Heon Street
Center for Youth provides services to homeless and 

                                                   ruaway
youth that incorporate HIV risk reduction messages in all
center activities. Peer educators provide HIV education at the
Neon Street drop- in center and on the streets.
                                                Behavior
changes are assessed through initial and follow-up interviews

conducted after a 2 month interval.

Through the Seattle Department of Health, community-
                                                     based in

AIDS/HIV risk reduction interventions are being implemented
three hard-to-reach high risk groups, one of which is street

youth.  These youth are located primarily in two fairly
isolated areas that can be used for comparison trials of

intervention. The object of the study is to assess beliefs

that interfere with adoption of safe sex and drug use

behaviors.
A demonstration project is underway also in the City of Denver.

This project is an ongoing follow-up of a cohort of 1,

who have had sex with men to assess seroconversion and 100 men

                                                        changes

in knowledge, attitudes, and behaviors. A cross sectional

analysis will be conducted on the impact of pre- and post-

intervention measures in three communities, one of which is

youth at risk for HIV infection.


OIG Recommendation


      PHS should conduct research on the manifestation of 

                                                         HTV
     infection in adolescents and develop appropriate clinical

     protocols for treating youth who are infected.

PHS Comment


We concur with the recommendation but believe
                                                   additional
attention should be focused on the early and subclinical
              tht
manifestations of HIV infection, the factors that
                                                  determne
occurrence of subclinical and clinical outcomes, and the

factors that determne access to clinical care by street youth.
We suggest, therefore, that this recommendation be revised as

follows:
      PHS should conduct research on the natural history and

     manifestations of 

                       HTV infection in adolescents and develop
     appropriate counseling, testing and clinical protocols for

     youth who are infected.


Research should not be 11m ted to the development of clinical

protocols, but should include an examnation of access to
intervention services by street youth. Clinical protocols,early
                                                            no
matter how effective, are of
they have access to care.                                     limted
                                     use to street youth unless
".            . "




     OIG Recommendation


                 The Office of Human Development Services (ORDS),
                                                          

                 collaboration with PHS, should design and 

                                                              plement a

                 strategy to curb HIV infection among street youth in five

                 ci ties with large populations of street youth and high
                 rates of HIV infection.
     PHS Comment


     We concur. However, we believe that the recommendation, as

     wri tten, could lead to unnecessary fragmentation in the overall

     coordination of the national
                                    DS/HIV prevention effort.

     Therefore, we suggest that this recommendation be revised as

     follows:
                                                                  plement
                    ORDS should collaborate with PHS to design and 


                strategies to curb HIV infection among street youth.

     As     noted on page 9 of the draft report, CDC has already planned

     an initiative specifically to prevent HIV infection among

     street youth     in   up to six cities with the highest cumulative

     incidence of AIDS. The President' s budget for fiscal year 1991

     requested $5. million         for CDC to implement this initiative.
     We believe that CDC should maintain lead responsibility for
     this effort.        CDC, will assist local governental and non­
     governental agencies that serve street         youth in these cities
     to plan, 
     plement, coordinate, and evaluate intensive efforts

     to prevent the spread of HIV infection among street youth.


     During the past several years CDC has implemented six other
     interrelated national activities to prevent HIV infection among
     out-of-school youth, especially street youth.
                                                     As a result, CDC
     has established significant capacity and
     the spread of HIV infection among this population.      prevent   exprience to
     that the best way to reach this population is        We believe

                                                    though the
     combined and coordinated capabilities of multiple
                                                        program
     wi thin CDC, as well as through other Federal and non-Federal
     agencies. CDC would be pleased to work with OHDS to
     thi s ini tia ti ve .                                 imlement
Technical Comments


Page 2
     The acronym for the National Institute for Mental

            Health, NIMH, should be introduced here rather than

            on page 16.
Page 9-10 The rates and raw    numers of Job Corps applicants
            infected with HIV in various cities do not reflect

            the size of the total populations in those cities

            (including the potential size of the street youth

            populations in those cities). The                numr of
                                                          AIDS
            cases diagnosed wi thin various cities is a function
            of both the rate of HIV infection within the cities

            and the size of the population at risk. Thus, the
            numer of AIDS cases would be a better criterion to
            use for directing program efforts, than the raw

            numers of     Job Corps entrants infected with
                                                                     aTV.
Pages 10
   ADAM " divisions"               should be changed to   ADAM
 and 20
     components. "
Page 11
    Table 1 may be misleading and we recommend that it be

            deleted. The data are based on reports that are
            biased toward major manifestations apparent at the
            time of initial diagnosis of AIDS. These data do not
            reflect. the clinical course of AIDS. The
            distributions may be statistically significant, but
            they are probably not clinically significant. Rather
            than reflecting a difference in the distribution of
            manifestations of AIDS between teenagers and adults,
            the table is likely to be a reflection of AIDS among
            teenagers with hemophilia compared to AIDS among
            adul t gay males.

Page 16
    The acronym for NIDA should be used only after

            identifying it as the National Institute on Drug
            Abuse.
Page 16
    NIDA, asAP, and NIM should be identified as being
            components of ADAM.
Page 19
    The last sentence of the first paragraph could

            confuse readers as written. We suggest that it be

            revised as follows:
             The long HIV incubation period means there will
            probably never be a comparatively large numr of
            teenagers diagnosed with AIDS, no matter how may
            teens become infected with the virus. May teens who
            become infected will not develop AIDS until they
            become adults.
                   , "




                     OIG RESPONSE TO PHS COMMENTS


We thank the PHS for its thoughtful response and appreciate its concurrence with
our recommendations. We have made the revisions to the third and fourth
recommendations as suggested in the PHS comments.

As explained in the Comments section of the report , we have also revised the final
recommendations in response to PHS' s comments. We now call for the PHS to take
lead responsibilty for a six- city initiative and for PHS to collaborate in that effort
with OHDS. We recognize that CDC' s FY 1991 initiative presents a logi.cal vehicle
for implementation of our recommendation. Unfortunately, we have not been able
to review a current and detailed plan for the CDC initiative, but we assume that it
resembles the draft of a similar initiative which CDC hoped to implement during FY
1990. Our review of that draft leads us to believe that while CDC' s planned
initiative is certainly consistent with the intent of our recommendation , it may not be
sufficient. Therefore , we have modified the text accompanying the recommendation
to reflect our position in that regard. While we originally stated that the planners
for the new strategy should consider taking four steps to reduce categorical program
barrers at the servce delivery level , we now include evaluation of those steps as an
integral part of the new strategy. The steps we are referrng to are the use of
waivers to eliinate categorical barrers to servce , linkage of funding to
demonstrated collaboration among local servce providers , the use of an anchor
agency within each community, and collocation of servces. We also stress that to
satisfy the intent of our recommendation , CDC must include OHDS and other PHS
components in the planning process and must encourage these other agencies to
consider how their own future initiatives can supplement or complement CDC's.

We have incorporated the changes suggested in PHS' s technical comments , with one
exception: we do not agree that the number of AIS cases is the best criterion for
directing program efforts aimed at street youth. It is our belief that the problem of
HIV infection among street youth may be manifested in a large number of
metropolitan areas across the country and that the 2900- AIS-case requirement
proposed by CDC for its new initiative may exclude from consideration many cities
with equal if not greater need. This belief stems in part from the Job Corps
seroprevalence data we present in the report. We urge CDC to re-evaluate the
eligibilty criteria for cities wishing to apply for funding through CDC' s new initiative.

Finally, we offer the following response to PHS' s general comments:

    Use of companion report We agree that publication of the directory of
    programs at a later date would not be timely. We note that the companion
    report entitled HIV Infection Among Street Youth: Department of Health
and Human Servces Programs and Resources " has already be n published'
in final form and is currently available. We suggest that publication of the

enhances itsrathervisibilty.
directory as a free-standing report ,
                   than an appendix to this report
                                                  

Broader prevention efforts  We concur with the PHS in its observation that
prevention of problems that lead young people to live on the streets is a
worthwhile goal. We would support the PHS in its desire to improve
primary prevention programs for high- risk familes and would welcome a
request from PHS to evaluate its efforts in this regard.

The role of NAPO We acknowledge that NAPO is given the opportunity to
comment on allocation proposals. Nevertheless , based on our research for
this study we concluded and maintain that NAPO has no clear authority to
design or coordinate PHS program efforts. Furthermore , as the Assistant
Secretary for Planning and Evaluation points out in his comments on this
report , non- PHS components of the Department are insufficiently
represented in NAPO-organized working groups. We believe that NAPO'
current structural limitations hinder its abilty to fulfil its mission and that
NAPO' s mandate itself may not be sufficiently broad to ensure coordination
and prevent duplication within the Department. As this inspection was not
designed as an evaluation of NAPO' s mission or performance , and as we are
not aware of any formal evaluations of NAPO , we are not making any
formal recommendations to PHS regarding that office. Given, however, the
critical nature of the epidemic, the visibilty of the office , and the need for
coordination of Departmental efforts to prevent the spread of HIV infection
such an evaluation may be in order.
.,

      11
           \U,VICIS"


                                                                        Ofice Of
                                  OF HETH   " HUN SERVICE               Human Development ServicE
                  i: DEPARTMNT 

     ol"                                                                Asistant Secretary
           4JO
                                                                        Washington DC 20201-0001

                                                         SEP 3 0





                 TO:         Richard P. Kusserow
                             Inspector General

                 FROM:       Assistant Secretary
                               for Human Development Services
                 SUBJECT:    Office of Inspector General Draft Report on "HIV
                             Infection Among Street Youth" (OEI-Ol-90-00500)

                 Thank you for the opportunity to review the draft report

                 developed by the Office of Inspector General on " HIV Infection

                 Among Street Youth.   The report effectively describes the need

                 for increased interagency efforts as well as research in order to

                 better address the needs of street youth infected with human

                 immunodeficiency virus (HIV). As such, it should be useful to

                 policyrakers both within and outside the Department of Health and
                 Human Services. While we concur with the ' thrust of the report,
                 we have several comments.

                 First, the report should advocate for coordination beyond that
                 involving just the Public Health Service (PHS) and the Office of
                 Human Development Services (OHDS). An examination of the extent
                 to which the categorical programs administered by other Federal
                 agencies , such as the Departments of Education and Labor, could
                 be extended to serve this population is also needed. Wi th
                 respect to collaboration between OHDS and PHS , however, some
                 efforts are already underway. In Region IX , for example , the two
                 agencies are cooperatively developing a data collection effort to
                 assess the health and medical needs of runaway and homeless
                 youth.
                 Second , while the report discusses barriers to the provision of
                 needed services to street youth, such as the denial of

                 eligibility for Medicaid benefits and the need for parental

                 consent prior to treatment (pages 11-13), it does not address

                 potential ways to remove these barriers. Street youth , because

                 they are not in family settings, are in limbo and are ineligible

                 for most Federal benefits to which many of them had previously
                 been linked when residing with their natural, foster or other
                 families.   These programs include Titles IV-A (Aid to Families
                 With Dependent Children), IV-B (Child Welfare Services),

 Page 2 - Richard P. Kusserow


 IV-E (Foster Care) and , particularly relevant to street   youth
 XIX (Medicaid). Needed remedies include advocating for     the
  extension of coverage for benefits such as Medicaid to this

. population and working with the states to liberalize emancipation
  requirements. Moreover, as the report describes, It ' survival
  sex '" (and we would add drug abuse) are the behaviors which put
  street youth at high risk of HIV infection (page 5). If the
  basic needs of these youth for food , shelter and other assistance
  are met , we may be able to reduce these behaviors. And by
  linking street youth to Medicaid and by assuring that medical
  psychological and psychiatric providers treat them if they are
  emancipated , the resistance to HIV testing by youth service
  workers may be reduced (page 7).
 Third, while the report discusses the need for programs which are

 directed towards older street youth and which offer lengths of
 stay beyond thirty days (pages 12-13), no mention is made of
 programs , such as the new Transitional Living Program for
 Homeless Youth , which address these voids. Grants under the
 Transitional Living Program , to be awarded for the first time in
 fiscal year 1990 , will support the provision of a wide range of
 services (including shelter, health promotion and treatment) to
 homeless youth , aged 16-21, for periods of up to eighteen months.
 Again ,   thank you for the opportuni ty to review this report.



                                          ila Gall

                                , "




                  OIG RESPONSE TO OHDS COMMENTS

We thank OHDS for reviewing our report and for its concurrence with our
recommendations. We feel that OHDS has accurately identified the need for
increased coordination within and outside DHHS , and for additional flexibilty in the
administration of assistance programs. We hope that our report can provide the
impetus for future efforts by OHDS in these areas. In response to OHDS' s thid
point , we point out that the Transitional Living Program is indeed mentioned at the
end of the Introduction and in the text accompanying the final recommendation
                                                                                , as
well as in the companion report HIV Infection Among Street Youth: Department
of Health and Human Servces Programs and Resources.
"'''                                                                         ~~~~               =-   \/ =


                                                                                              .r0
                 DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                                            OfIC of th   Seetay
                                                                                        J-'
       4'O
                                                                                                      .shirt   . D. C. 20201
                                                    SEP                  - PDIG
                                                                    /0:)"'    IG



                                                                              DIG-AS

                                                                             DIG-EI
                          Richard P. Kusserow	                               DIG. or
                          Inspector General                                  AIG-MP 	
                                                                                                                           G"
                                                                                                                           rn 0
                                                                             OGC/IG
             FROM	       Assistant Secretary for                             EX SEO 

                         Planning and Evaluation                             DATE SD
                                                                                  

             SUBJECT: OIG Draft Report:              "HIV Infection Among Street Youtq;"

                         OEI-01-90-00S00 --          COMM



             I appreciate the opportunity to review and comment on the above

             named report. I think that the report will prove useful in that

             it helps to bring greater attention to a group of
                                                               Y011th who are
             at particular risk of HIV           infection. In
                                                      addition, I think the
             finding that "basic survival needs of street youth overwhelm

             education efforts aimed at reducing high-risk behavior" is

             particularly important, and encourage you to give greater
             emphasis to this finding and its relationship to your specific

             recommendations.
             While this study reports remarkabl high levels of knowledge

             among street youth about how to avoid HIV infection , many other

             studies have found that a high degree of ignorance about HIV

             infection exists among adolescents. This apparent inconsistency

             should be addressed, even though the main message is that

             knowledge alone is not sufficient to prevent high risk behavior

             in this population.


             While HIV infection can be effectively prevented through the use
             of condoms and avoidance of high risk behaviors, these methods
             are not being effectively transmitted to street youth or other
             adolescents at high risk of           infection.
                                                      Therefore, I think one of
             the study' s primary recommendations should be to encourage the

             research and development of educational strategies for

             adolescents that will change high risk behaviors.


             I have several other comments, as well as some specific technical

             suggestions.
             Comments
                  Reasons for Understandina the ImDact and Future Threat of


                 The third paragraph on page 2 states that this is critical

                 for two reasons: because of improving the chances of long-

                 term survival due to recent medical breakthroughs and

                 because a large numer of 

                                             ftet youth eventually return to

.'




       mainstream society, unknowingly spreading HIV
       While these reasons are important, I think the infection.
                                                       primary

       reason should be to prevent HIV infection in this group and

       the general- population.


      I suggest retaining the first justification but only

      secondary reason. There is no way to make those who as a

      contracted the virus " well" with medical treatment. have
      language that street youth may eventually return to The
      mainstream society should be dropped because of the
      insensitivity it reflects for those with the disease.
      treatment and prevention should be provided to all groups
                                                              AIDS
      wi thout regard to their present or future contact with the
       general" population, however that is defined.
      Data Collection on Hiah Risk Sexual Activity

      and 19 , the report recommends data collection -on
                                                       Onsexual

                                                          pages 8
      activity of street youth.   Surveying street youth  on sexual

      activity has many of the same  methodological difficulties  as

      are cited under the discussion for seroprevalence 

      Consequently, the use of a national survey approachstudies.
                                                            such as
      the " Survey on Health and AIDS Risk Prevalence
                                                       " might that

      to be very difficult. I agree with the recommendation    prove
      gathering data from several metropolitan areas with large
      concentrations of street youth is preferable to a national
      survey.   This approach of performing in-depth studies at
      selected sites has been used to look at HIV risk behavior in

      IV drug abusing populations

      population.                 , another hard to reach

     Case Management Versus Collocation

                                         - On
     report raises an interesting issue on    pages
                                            the      14 and 15 ,of

                                                 effectiveness   the

     using case management versus collocation or "

     shopping" in getting services to street youth. one
stop
     issue that merits further investigation           Is this an

     your office would recommend that further, research
                                                and one for which

                                                         be done?


     Local Coordination - The first paragraph on page 14 is

     principally directed at fragmented funding streams.
     However , it is also an example of the need for localities to
     do better coordination.


      DS Re resentation on APO Coord '
                                       nated Gaou
     this study appropriately has identified       s -for
                                                need   I think that
                                                          NAPO to

     better incorporate the non-PHS components of the Department

     in their coordinating activities. 

                                         I suggest
     want to make a specific recommendation  relatedthat you might

                                                      to this

     finding.
      DAM esi nation of a Sin Ie Unit to Coordi ate
     on Street Youth - I am concerned that, as now       esearch
     recommendation could be misinterpreted to mean stated, the IG

                                                     the creation

                                                       ...



       of a new organizational entity or individual  role. Research
                           ot unique in needing collaboration and
        on street youth is 


        coordination. ADAM has many issues in which there is a
       need for coordination among its Institutes and Offices.
       you think it is important to recommend a coordinating
       function, I suggest that you provide more flexibility to the
       ADAM Administrator to determine how to achieve that
       coordination.
Technical Comments


       Page i and page 1, second paragraph. It would be more
       accurate if the background information spoke about the

       numer of 
 reported cases of AIDS among adolescents and those
       in the 20- to 29- year-old categories. The statement,
       "Although very few teenagers have developed AIDS, ...
       should read, 'Although very few cases of AIDS have been
       reported among teenagers , the numer of reported cases among
       20- to 29- year-olds suggests a high level of HIV infection
        (which causes AIDS) among teenagers.

       While the general observations in the document regarding

       disease prevalence are probab y true, it is likely that

       significant underreporting of both HIV infection and AIDS

       occurs in these age groups , and it would be preferable to

       use the more precise language in the background statement.

2. '   Page       1, third paragraph.
                                 As now drafted , the paragraph
       potentially could give the impression that the 13- 29-
       olds with AIDS are not predominantly male. Yet the datayear
                                                                 in
       the endnotes indicate that even in the younger age groups
       males are significantly overrepresented. This discussion,
       combined with the use of the female gender pronouns or
       female examples when discussing the street youth, gives the
       impression that female street youth are more at risk.

       Page 6, first paragraph. The phrase " we heard anecdotal
       evidence from providers in several cities that their clients
       are willing to pay more for sex without condoms
       needs redrafting. As currently written, it implies "that
                                                            perhaps
                                                                the

       street youth, themselves, are willing to pay more for sex

       without condoms. Is this the intent of this sentence?

       Page 10, "Treatment Protocols.   While representation of
       adolescents in clinical trials is a legitimate concern, the
       paragraph should point out that one of the obstacles has
       been the size of the pool of potential participants.



                                        1\­
Page 13, "Other Conditions of Participation. . As now
drafted, the paragraph implies that the youth was excluded
from the treatment program because she did not have a
supportive partner. Is this in fact the case, or is it that
the girl did not successfully complete treatment? This
point needs clarification because many substance abusers
drop out of treatment programs. If the young girl was
admi tted to the program but did not successfully complete
treatment, then this particular requirement is not a good
example of program requirements that may be barriers to
street youth.




                   Martin H. Gerry

                   OIG RESPONSE TO ASPE COMMENTS


We thank the Assistant Secretary for his thoughtful comments and his support for
recommendations contained in our report. We agree about the importance of our
fiding that the basic survval needs of street youth overwhelm education efforts
geared to reducing high- risk behavior. Our final recommendation is aimed at
addressing the issue of basic survval needs. Our hope is that by restructurig
servces and using waivers to eliminate access   barrers ,   the Department wi   be able
to address the basic needs of street youth more effectively. We also concur about
the value of educational strategies to change high-risk behaviors among adolescents.
Our third recommendation directed to the PHS addresses this issue specifically.

We have made nearly all the changes suggested in the Assistant Secretary s general
and technical comments. We strongly agree with the concern about the need for
NAPO to better incorporate the non-PHS components of the Department in its
coordinating activities. We suggest in our response to PHS' s comments that a formal
evaluation of NAPO' s mission and performance may be in order.
                                     APPENDIX B


                            METHODOLOGICAL NOTES

The methodology for the study included the following:

1.   Literature review. The study team conducted a literature review of popular
     professional and government publications. We reviewed articles and reports on
     issues such as epidemiology; behavior modification models; HIV education
     prevention , and intervention; adolescent health; HIV knowledge , attitudes , beliefs
     and behaviors; and clinical treatment.

2.   Federal survey.The study team examined current Federal policy and actions on
     the issue of HIV infection among street youth through a review of Departmental
     documents and intervews with relevant staff in offices engaged in AIS-related
     activities.

     In response to a formal request for information , eight Departmental offices
     provided a summary of ongoing activities relevant to HIV infection among
     adolescents for our review. Six other offices added supplemental information.
     We relied on the documents to formulate a profie of Departmental efforts and
     looked for signs of internal duplication and omissions.

     Following a review of these documents , we conducted intervews with 15 Federal
     employees who had significant experience with either HIV infection or street
     youth or both. The intervews garnered information on: the employees
     perceptions of the strengths and weaknesses of Departmental efforts; suggestions
     for strengthening the Department' s overall approach; coordination of activities
     within the Department; and mechanisms for sharing of information among offices
     and divisions.

     We analyzed the qualitative data collected in intervews with Departmental staff
     to identify barrers to communication and coordination within and among
     organizational components and ways to enhance collaboration. We reviewed
     Departmental efforts and strategies in the context of major research findings and
     lessons learned at the servce delivery        level.

3. Research and advocacy organization    survey.            Telephone intervews were conducted
     with offcials from 2 local and 13 national independent organizations who
     perform research and provide advocacy   servces. The organizations selected
     either receive Federal funding for HIV-related activities , or were identified
     through the literature or word-of-mouth as playing a major role in this area.
         The discussion             guide used for   the telephone intervews elicited information on
         such issues as coordination among advocacy and direct servce organizations on
         the issue of HIV infection; their stance on HIV testing; their perceptions of the
         F:ederal response to HIV among street youth; and their ideas about successful
         prevention , testing, and treatment programs for this population.

 4.     Direct service provider survey.              Infomiation was obtained from direct servce
        providers that serve street youth , through a telephone survey of 20 organizations
        and site visits to 3 selected providers. The Office of Human Development
        Servces provided a list of candidates for the survey. From this list we selected
        23 organizations on the basis of caseload size and geographical diversity (each
        region of the country yielded at least 2 participants). The site viits took place
        in three major urban areas with a relatively large population of street youth and
        a selection of programs that serve them.

        We conducted the telephone intervews with the executive directors of these
        organizations , or their designees. A discussion guide was used to ask them about
        issues that affect servce delivery for street youth; lessons learned from
        experiences with servce delivery; and perceptions of Federal efforts.
                                                                                 A protocol
        incorporating the issues covered in the telephone intervew and elaborating upon
        them , was used for the site visits.

       The telephone intervews and site visits were used to develop profiles of
       programs that are providing innovative servces , to create an inventory of positive
       and negative lessons learned at the servce delivery level , and to identify areas of
       consensus regarding opportunities to improve Departmental efforts.

A list of participating offices and organizations follows:

Federal offces responding to a formal request for         Alcohol , Drug Abuse
                                                                 information:

and Mental Health Administration; Centers for Disease Control; Food and Drug
Administration; Health Resources and Servces Administration; Health Care
Financing Administration; National AIDS Program Office; National Institutes of
Health; and Offce of Human Development Servces.

Offces providing supplemental information:
                                                             Bureau of Prisons; Indian Health Servce;
Job Corps; Office of Assistant Secretary of Defense for Health Afairs; Offce of
Disease Prevention and Health Promotion; and Offce of Minority Health.

National and local research and advocacy organizations:
                                                      American Foundation for
AIDS Research; Association for the Care of Children s Health; Boston AIS
Consortium; Center for Population Options; National AIDS Network; National
Coalition of Advocates for Students; National Coalition of Hispanic Health and
Human Servces Organizations; National Commission on Correctional Health Care;
National Education AgencylHealth Information Network; National Minority AIDS
Council; National Network of Runaway and Youth Servces; National Organization of
Black County Officials; Planned Parenthood (of Washington , D. C.); Society for
Adolescent Medicine; and U. S. Conference of Mayors.

                             Adolescent AIDS Program , Bronx, NY; Avance Human
Direct service organizations: 


Servces , Los Angeles , CA; Bridge Over Troubled Waters , Boston , MA; Casa Shelter
YMCA, Dallas , TX; Comitis Crisis Center, Aurora , CO; Covenant House , Ft.
Lauderdale , FL; The Door, New York, NY; Gay and Lesbian Community Servce
Center, Los Angeles , CA; Janice Youth Programs , Portland , OR; L.A. Children
Hospital , Los Angeles , CA; L.A. Network , Los Angeles , CA; Larkin Street , San
Francisco , CA; Middle Earth Unlimited , Austin , TX; Neon Street Shelter, Chicago
IL; New Beginnings , Lewiston , ME; Sasha Bruce Youthworks , Washington , DC;
Streetwork Project , New York , NY; Synergy House , Parkvlle , MO; Teen Livig,
Chicago , IL; Volunteers of America , Denver , CO; Youth Care , Seattle , WA; Youth
Emergency, Philadelphia , P A; and Youth Emergency Shelter and Servces , Des
Moines , IA.
'" ,
                        , "




                                                            APPENDIX C

                                                             ENDNOTES


        1. Centers for Disease Control   HW/AIDS Surveillance Report November 1990.
            Figures through October 31 , 1990. Teenagers represent less than 0.4 percent of
            the total number of AIS cases.

        2. Centers for Disease Control   Strategic Plan for the Prevention of Human
            Immunodeficiency Viru   (HIV                                       Centers for
                                                           Infection: 1990 and Beyond (Draft),

            Disease Control , 1990. For adolescent vs. adult incubation period , see Goedert
               , et aI. A Prospective Study of Human Immunodeficiency Virs Type 1
            Inection and the Development of AIDS in Subjects with Hemophila New
            England Journal of Medicine 
                 321(17):1141- 1148,             1989.

        3. Centers for Disease Control                    HW/AIDS Swveilance Report November 1990.
            Figures through October 31 ,                  1990.


        4. See, for example, U. S. General Accounting Offce Homelessness: Homeless and
           Runaway Youth Receiving Services at Federally Funded Shelters, HRD- 90­
           December 1989.
        5. A runaway youth is a person under 18 years old who absents himself or herself
           from home or place of legal residence without the permission of parents or legal
           guardians. A homeless youth is a person under 18 years old who is in need of
           servces and without a place of shelter where he or she can receive supervsion
           and care. See                 55(44):8086, March 6, 1990.
                                      Federal Regiter 





        6. Figures from the National Network of Runaway and Youth Servces, cited in U.
           S. General Accounting Office AIDS Education: Programs for Out-of-school Youth
           Slowly Evolving, 
 HRD- 90- 111 , May 1990, p. 2.
        7. The Department     of Defense , whose test results are often cited as evidence of
           the infection rate among young Americans , has actually witnessed a decline in
           the incidence of HIV antibodies among applicants since 1985. This may be due
           however, to self-selection bias caused by knowledge of HIV testing requirements
           and by recent publicity surrounding DoD' s policy of excluding homosexuals from
           miltary servce. Furthermore , the miltary is not likely to attract many street
           youth. Unlike miltary recruits , 97 percent of all Job Corps entrants are under
           21 years old and are primarily from low-income familes and urban                       settings.
           Although the Job Corps sample certainly taps the street youth population more
           regularly than the miltary sample , it too may underestimate the true incidence of
                                                            , "




    HIV among street youth. The Job Corps s testing requirements are also well
    known , and the Corps tests only those street youth who are motivated to enter a
    strictly regimented program.

8. Response           to OIG request from Deputy Director (HIV), Centers for Disease
    Control , May 1990. These estimates are derived from seroprevalence data
    gathered at 26 sentinel hospitals, which are part of CDC' s efforts to determine
    the progress of the epidemic nationwide. The CDC was unable to provide             any
    demographic information other than age range and sex to accompany this
    estimate.

9. For  a review of published epidemiological data concerning AIS , HIV, and
    adolescents , see National Research Council Committee on AIS Research and
    the Behavioral , Social , and Statistical Sciences AIDS: The Second Decade
    Washington: National Academy Press , 1990 , pp. 147- 167.

10. Between October and December 1989 , miltary recruits tested positive for HIV
    at a rate of 0. 2/1 000 for 17- to 20-year-olds , and 1.6/1 000 for 21- to 25-year­
    olds. For Hispanic 17- to 20-year-old males , however, the rate was 1.2/1 000 , and
    for black 21- to 25-year-old males , the rate was 6. 2/1 000. Figures provided
    response to OIG request from Offce of Assistant Secretary of Defense for
    Health Afairs , Department of Defense , March 1990.

11. While the seroprevalence rate for Job Corps applicants nationwide between
    October 1 , 1987, and October 31 , 1989, was 3. 88/1 000 , several cities experienced
    much higher rates. Examples include San Francisco (13. 91/1 000), Miami
    (12. 98/1 000), and New York City (10.42/1 000). Figures provided in response to
    OIG request from Director , Office of Job Corps , Department of Labor, March
    1990.

12. According to the Public Health Servce                 Year 2000 National Health
                                                     s draft of the

    Objectives 1987 seroprevalence rates among 18- to 25-year-old homosexual men
    seeking treatment for sexually transmitted diseases were as high as 700/1 000
    while for people in the same age group seeking treatment for intravenous drug
    use they ranged up to 600/1 000. Preliminary data from a seroprevalence survey
    of homeless youth in New York City, provided to us by CDC' s Center for
    Infectious Diseases , indicate an infection rate of 70/1, 000.

                                               Preventing HIV Infection and AIS
13. Brooks- Gunn , J. , Boyer , C.B. , and Hein , K.
    in Children and Adolescents: Behavioral Research and Intervention Strategies
   American Psychologit         43(11):958- 964 ,   1988.


14. Non- IV substance abuse , while not considered risky for HIV transmission in
    itself, is thought to stimulate sexual activity and interfere with the cognitive
    functioning necessary for safer sex.
..                               ,, ""                             ,,, """           , "                 , "




     15. This is a weighted average , with weight added in proportion to the number 

         clients served.


     16. Personal communication with Diane Sondheimer , National Institute of Mental

         Health , March 1990.

     17. Becker, M.                 , and Joseph , J.                        AIS and Behavioral Change to Reduce Risk:
          A Review               American Journal of Public Health 
                                78(4):394- 410,   1988.


     18. National Institute on Drug Abuse	 AIDS High Rik                                                Adolescent Prevention Project:
         Partcipant' s Manual     , pp. 2- 10.

     19. Ibid.

     20. Wright , J.                     Povert, Homelessness ,            Health , Nutrition and Children
          unpublished paper delivered at conference on                               Homeless Children and Youth:
          Coping with a National Tragedy, 
                            Washington , D. , May 1989.

     21. National Institute of Allergy and Infectious Diseases Recommendations for
         Zidovudine: Early Infection JAM      263(12):1606- 1609, 1990.

     22. Goodman , E. , and Cohall , A.   Acquired Immunodeficiency Syndrome and
         Adolescents: Knowledge , Attitudes , Beliefs , and Behaviors in a New York City
         Adolescent Minority Population                  84(1):36­ , 1989.   Pediatrics 	




     23. Athey, Jean	 HIV Infection and Homeless Adolescents " unpublished manuscript
         1990 ,        p. 7.


     24. Ibid.

     25. Brooks- Gunn ,                  J. , and Furstenberg, 	                             Adolescent Sexual Behavior American
         Psychologit             44(2):249- 257,               1989.


     26. D' Angelo , L.J. , and Sondheimer, D.                                              Adolescents and HIV Infection:
         Struggling Not to Be Forgotten                                 Pediatrc AIDS, 
              in press. See also the Offce of
         Technology Assessment Staff Paper How Effective is AIDS Education?,                                                  1988.


     27. Flora ,  , and Thoresen , C.E. Reducing the Risk of AIS in Adolescents
                       J.

         American Psychologit 43(11):965- 970, 1988.

     28. Watkins ,          J.     , et aI.         Report of the Presidential Commission on the Human
         Immunodeficiency Viru Epidemic 1988 ,                                              p. 3.


     29. Pediatric AIDS Coalition 1990 Legilative Agenda                                                p. 12.
                               , "




\I




     30. Personal communication with Diane Sondheimer, National Institute of Mental
            Health , May 1990.

     31. Ibid.

     32. English ,  A. Adolescents and AIDS: Legal and Ethical Questions Multiply, " in
            Quackenbush , M. , Nelson , M. , and Clark, K. The AIDS Challenge, Prevention
            Education for Young People Santa Cruz, CA: Network Publications , 1988.

     33. Yates ,  G., Testimony before the Little Hoover Commission on California State
            Government Organization & Economy, December 13 , 1989. Also personal
            communication with Gary Yates , March 1990.

     34. For the purposes of    this question , we considered each major component of the
            Public Health Servce plus OHDS and HCFA to be a separate agency.
            Subcomponents such as the National Institute of Mental Health and the National
            Institute on Drug Abuse were not considered separate agencies.
     35. The particular agencies named most often were CDC (11 mentions), ADAM
         (5 mentions), and NIH (5 mentions).
     36. Here the most                 commonly cited agencies were CDC (10 mentions), ADAMHA
            mentions), HRSA ( 4 mentions), NIH (4 mentions), and OHDS (3 mentions).

     37. National AIDS Program Office , unpublished document , June 1989.

     38. Federal Regiter 
             55(92):19832-   , May 11 ,   1990.


     39. Now that both have been completed and are being implemented across the
         country, OHDS is making efforts to ensure coordination between agencies and
            contractors.

     40. U. S. General Accounting Office AIDS Education: Programs for Out-of-School
                               HRD- 90- 111 , May 1990, p. 1.
            Youth Slowly Evolving, 





     41. We asked for ratings of the overall response on a scale of 1-        , with 1 meaning
           poor and 10 meaning excellent. The mean responses were as follows: Prom
           direct servce providers , 2.4 for street youth and 3.4 for youth in general; from
           research and advocacy organizations , 2.4 for street youth and 4. 0 for youth in
           general; from DHHS officials , 3. 7 for street youth and 5. 9 for youth in general.
